HHS/OIG - Audit,"Review of Florida Medicaid Claims for 21 to 64 Year Old Residents of State Psychiatric Hospitals That Are Institutions for Mental Diseases,"(A-04-01-02003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Florida Medicaid Claims for 21 to 64 Year Old Residents of State Psychiatric Hospitals That Are Institutions
for Mental Diseases," (A-04-01-02003)
March 18, 2002
Complete
Text of Report is available in PDF format (591 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if the State of Florida had adequate controls to preclude claiming Federal
financial participation (FFP) under the Medicaid Program when 21 to 64 year old residents of State operated institutions
for mental diseases were transferred to acute care hospitals for inpatient treatment.  Our audit indicated that the
State of Florida generally had adequate controls to prevent improper FFP claims in such cases.  We reviewed about
3,800 claims totaling about $19.8 million in Medicaid payments, and found only 47 claims that were not eligible for Federal
reimbursement, yet FFP was claimed.  These claims represented $78,880 in FFP.  We recommended the State reimburse
the Federal Government for the FFP share of the unallowable claims.